No. 19-168
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

REMINGTON ARMS CO., LLC, ET AL., Petitioners,
v.
DONNA L. SOTO, ADMINISTRATRIX OF THE ESTATE OF
VICTORIA L. SOTO, ET AL., Respondents.
____________________
On Petition for a Writ of Certiorari
to the Supreme Court of Connecticut
____________________
Brief Amicus Curiae of
Gun Owners of America, Inc., Gun Owners
Foundation, The Heller Foundation, Tennessee
Firearms Association, Conservative Legal
Defense and Education Fund, California
Constitutional Rights Foundation, Policy
Analysis Center, and Restoring Liberty Action
Committee in Support of Petitioners
____________________
JOSEPH P. SECOLA
Danbury, CT
JOHN I. HARRIS III
Nashville, TN
Attorney for TFA
STEVEN C. BAILEY
Ramona, CA
Attorney for CCRF
JOSEPH W. MILLER
Fairbanks, AK
Attorney for RLAC

HERBERT W. TITUS*
WILLIAM J. OLSON
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record
September 4, 2019

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . 2
A. Protection of Lawful Commerce in Arms
Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Events Leading to this Lawsuit . . . . . . . . . 6
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 7
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

THE CONNECTICUT SUPREME COURT’S
INTERPRETATION OF THE PREDICATE
EXCEPTION TO THE PROTECTION OF LAWFUL
COMMERCE IN ARMS ACT VIOLATED THE
WHOLE TEXT CANON. . . . . . . . . . . . . . . . . . . . . . 9
A. The Whole Text Canon Applied . . . . . . . . 10
B. The Whole Text Canon Neglected . . . . . . 15
C. The Whole Text Canon’s Treatment in
the Dissent . . . . . . . . . . . . . . . . . . . . . . . . 17

II. THE CONNECTICUT SUPREME COURT
MISAPPLIED THE CANONS OF CONSTRUCTION
THAT IT ADDRESSED . . . . . . . . . . . . . . . . . . . . . 17
A. Clear Statement Principle . . . . . . . . . . . . 18

ii
B. Doctrine of Ejusdem Generis . . . . . . . . . . 19
C. Statutory Exceptions to Be Construed
Narrowly . . . . . . . . . . . . . . . . . . . . . . . . . . 21
III. PLCAA WAS ENACTED TO PROTECT THE
SECOND AMENDMENT RIGHTS OF AMERICAN
CITIZENS, WHICH RIGHTS WERE IGNORED BY
THE CONNECTICUT SUPREME COURT. . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Amendment II . . . . . . . . . . . . . . . . . . . . . . . 9, passim
Amendment XIV. . . . . . . . . . . . . . . . . . . . . . . . . . . 13
STATUTES
15 U.S.C. § 7901 . . . . . . . . . . . . . . . . . . . . . . 5, passim
15 U.S.C. § 7902 . . . . . . . . . . . . . . . . . . . . . . 2, 11, 14
15 U.S.C. § 7903 . . . . . . . . . . . . . . . . . . . . . . 2, passim
18 U.S.C. § 923 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Arms Export Control Act of 1968 . . . . . . . . . . . . . 11
Connecticut Unfair Trade Practices Act . . . . 6, 7, 15
Gun Control Act of 1968 . . . . . . . . . . . . . . . . . . . . 11
National Firearms Act . . . . . . . . . . . . . . . . . . . . . . 11
Protection of Lawful Commerce in Arms
Act, 119 Stat. 2095 (2005) . . . . . . . . . . . 2, passim
CASES
City of New York v. Berreta USA Corp., 524
F.3d 384 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . 7
District of Columbia v. Heller, 554 U.S. 570
(2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Ileto v. Glock, Inc., 565 F.3d 1126
(9th Cir. 2009) . . . . . . . . . . . . . . . . . . . . . . . 7, 23
McDonald v. City of Chicago, 561 U.S. 742 (2010) . 6
U.S. v. Miller, 307 U.S. 174 (1939) . . . . . . . . . . . . 26
MISCELLANEOUS
A. McClurg, “The Second Amendment Right to
be Negligent,” 68 FLA. L. REV. 1 (2016). . . . . . . 4
W. Prosser, Law of Torts (West, 4th ed.: 1971). . 4, 5

iv
R.J. Rummel, Death By Government
(Routledge: 1997) . . . . . . . . . . . . . . . . . . . . . . . 25
A. Scalia & B. Garner, Reading Law
(West: 2012) . . . . . . . . . . . . . . . . . . . . . 10, 15, 16
J. Spector, “Remington Arms, the upstate
New York gunmaker, to partially shut
down plant this summer,“ Democrat &
Chronicle (May 30, 2019). . . . . . . . . . . . . . . . . 26

INTEREST OF THE AMICI CURIAE1
Gun Owners of America, Inc. and Tennessee
Firearms Association are nonprofit social welfare
organizations, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4). Gun
Owners Foundation, The Heller Foundation,
Conservative Legal Defense and Education Fund,
California Constitutional Rights Foundation, and
Policy Analysis Center are nonprofit educational and
legal organizations, exempt from federal income tax
under IRC section 501(c)(3). Restoring Liberty Action
Committee is an educational organization.
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.
Some of these amici also filed an amicus brief in
this case in the Supreme Court of Connecticut: Brief
Amicus Curiae of Gun Owners of America, Inc., et al.,
in Support of Defendants-Appellees (May 30, 2017).

1

It is hereby certified that counsel for the parties have consented
to the filing of this brief; that counsel of record for all parties
received notice of the intention to file this brief at least 10 days
prior to its filing; that no counsel for a party authored this brief in
whole or in part; and that no person other than these amici curiae,
their members, or their counsel made a monetary contribution to
its preparation or submission.

2
STATEMENT OF THE CASE
A. Protection of Lawful Commerce in Arms
Act.
On October 26, 2005, Congress enacted the
Protection of Lawful Commerce in Arms Act
(“PLCAA”), with a long title that made its purpose
crystal clear:
An Act [t]o prohibit civil liability actions
from being brought or continued against
manufacturers, distributors, dealers, or
importers of firearms or ammunition for
damages, injunctive or other relief resulting
from the misuse of their products by others.2
The bill was adopted on a bi-partisan basis by a
65-31 margin in the Senate and a 283-144 vote in the
House. Signed into law by President George W. Bush,
the Act specified that it would have two effects:
(i) mandating that courts order the dismissal of all
pending “qualified civil liability actions,” and
(ii) prohibiting the commencement in any Federal or
State court, of any new such actions. See 15 U.S.C.
§ 7902.
In a lengthy provision, Congress defined what it
meant by a “qualified civil liability action” (15 U.S.C.
§ 7903(5)(A)) followed by definitions of eight court or
administrative actions not included (15 U.S.C.

2

119 Stat. 2095 (2005) (emphasis added).

3
§ 7903(5)(A)(i)-(vi)). A “qualified civil liability action”
is:
a civil action or proceeding or an
administrative proceeding brought by any
person against a manufacturer or seller of a
[firearm3], injunctive or declaratory relief,
abatement, restitution, fines, or penalties, or
other relief, resulting from the criminal or
unlawful misuse of a [firearm] by the person or
a third party. [15 U.S.C. § 7903(5)(A).]
“[B]ut,” § 7903(5)(A) “shall not include” any of the
eight actions or proceedings described in subsections
(i) - (vi). Of these subsections, only one is directly
involved in this case, known as the “predicate
exception,” which reads as follows:
(iii) an action in which a manufacturer or
seller of a qualified product knowingly violated
a State or Federal statute applicable to the
sale or marketing of the product, and the
violation was a proximate cause of the harm
for which relief is sought, including—
(I) any case in which the
manufacturer or seller knowingly
made any false entry in, or failed to
make appropriate entry in, any record
required to be kept under Federal or
State law with respect to the qualified
product, or aided, abetted, or
3

Although the act applies to firearms and ammunition,
references here will be made to firearms only.

4
conspired with any person in making
any false or fictitious oral or written
statement with respect to any fact
material to the lawfulness of the sale
or other disposition of a qualified
product; or
(II) any case in which the
manufacturer or seller aided, abetted,
or conspired with any other person to
sell or otherwise dispose of a qualified
product, knowing, or having
reasonable cause to believe, that the
actual buyer of the qualified product
was prohibited from possessing or
receiving a firearm or ammunition
under subsection (g) or (n) of section
922 of title 18....
[15 U.S.C.
§ 7903(5)(A)(iii).]
In most of the history of our nation, civil liability
for damages caused by the “criminal misuse” of
firearms was generally governed by common law tort
rules of individual fault and proximate causation. See
A. McClurg, “The Second Amendment Right to be
Negligent,” 68 FLA. L. REV. 1, 3-5 (2016). Although
ordinary firearm tort liability is judged by the “highest
degree” of care, it was not subject to strict liability (id.
at 21-25), which was applicable only to those things
and activities that met the common law definition of
“abnormally dangerous.” See W. Prosser, Law of Torts
at 505-16 (West, 4th ed.: 1971). However, in the years
leading up to the opening decade of the 21st century,
Congress became concerned that the time-honored
principle of individual responsibility was being eroded

5
to the point where legitimate firearm manufacturers,
distributors, and dealers were increasingly pressured
to assume the financial burden of the misuse of
firearms under ever-expanding notions of enterprise
liability threatening their liberties. See id. at 494.
Thus, § 7901(a)(7) declared:
The liability actions commenced or
contemplated by the Federal Government,
States, municipalities, and private interest
groups and others are based on theories
without foundation in hundreds of years of the
common law jurisprudence of the United
States and do not represent a bona fide
expansion of the common law. The possible
sustaining of these actions by a maverick
judicial officer or petit jury would expand civil
liability in a manner never contemplated by
the framers of the Constitution, by Congress,
or by the legislatures of the several States. [15
U.S.C. § 7901(a)(7).]
Foremost among the liberties threatened was the
Second Amendment right to keep and bear arms. See
15 U.S.C. § 7901(a)(1) and (2). Hence, one of the
purposes of PLCAA is to “preserve a citizen’s access to
a supply of firearms and ammunition for all lawful
purposes, including ... self-defense.”
15 U.S.C.
§ 7901(b)(2). Remarkably, Congress made these
findings in October 2005. It was not until June 26,
2008 — 32 months later — that this Court caught up
with Congress, affirming that the Second Amendment
is, indeed, an individual right. See District of
Columbia v. Heller, 554 U.S. 570 (2008). And it took

6
an additional two years for this Court to rule that one’s
Second Amendment rights were secured by the
Fourteenth Amendment from abridgement by the
States. McDonald v. City of Chicago, 561 U.S. 742
(2010).
B. Events Leading to this Lawsuit.
On the morning of December 14, 2012, Adam
Lanza forced his way into Sandy Hook Elementary
School carrying a Bushmaster semiautomatic rifle
which he criminally and unlawfully misused by
shooting and killing 20 children and six staff members.
Soto v. Bushmaster Firearms Int’l, L.L.C., 371 Conn.
53, 202 A.3d 262, 272 (2019). As the court below
acknowledged, “Lanza was directly and primarily
responsible for this appalling series of crimes.” Id.
But, the court continued, “the plaintiffs ... contend that
the defendants also bear some of the blame.” Id. In
response, the court concluded that all the plaintiffs’
claims are precluded either by state law or by the
PLCAA, except for “one narrow legal theory.” Id.
The plaintiffs had brought a claim under the
Connecticut Unfair Trade Practices Act (“CUTPA”),
alleging that Bushmaster Firearms International,
L.L.C. and Remington had engaged in “unethical,
oppressive, immoral and unscrupulous” conduct by
marketing an AR-15 type rifle as “‘the ultimate combat
weapons system,’” selling it with a 30-round
“standard” magazine, etc. CUTPA imposes broad civil
liability under an essentially meaningless standard of
fairness. The trial court dismissed this claim as well,
noting that the relatives of the Sandy Hook shooting

7
victims had no “commercial relationship” with
Remington. Soto at 284.
On appeal, the Connecticut Supreme Court, in a
narrow 4-3 decision over a “vigorous dissent,” created
an unprecedented expansion of the CUTPA statute,
claiming that no commercial relationship was
necessary in order to allege unfair trade practices in
Connecticut. The Court admitted that it would be a
“Herculean task” to link the alleged deceptive
marketing to the school shooting, but allowed the
claim to proceed. See Soto at 290.
Remington argued that the PLCAA “predicate
statute” exemption only applies to laws that
specifically regulate the firearms industry, such as
straw purchases, licensing, record keeping, etc. In
fact, both the Second and Ninth Circuits have ruled
that this is the case. See City of New York v. Berreta
USA Corp., 524 F.3d 384 (2d Cir. 2008); see also Ileto
v. Glock, Inc., 565 F.3d 1126 (9th Cir. 2009).
The Connecticut Supreme Court, however,
disagreed, expanding the PLCAA exemption to any
statute that is “capable of being applied” to firearm
sales or marketing. As Remington pointed out, this
would swallow the rule and permit all sorts of absurd
lawsuits (like this one) that were precisely what
Congress was trying to prevent.
SUMMARY OF ARGUMENT
This case involves a flagrantly erroneous state
court interpretation of an important federal statute

8
which protects the People’s exercise of the
constitutionally enumerated right to keep and bear
arms. The Connecticut Supreme Court took it upon
itself to interpret an exception to the PLCAA so
broadly as to negate the very protection that Congress
enacted the statute to provide. Thus, the correct
interpretation of the PLCAA’s so-called “predicate
exception” constitutes an important question of federal
law that has not been, but should be, settled by this
Court.
To reach its decision, the Connecticut court ignored
the whole text canon, which calls on the judicial
interpreter to consider the entire text of a statute to
ascertain the meaning of the words employed by the
drafters. Instead of examining the PLCAA’s detailed
findings and purposes of the law as a whole to
ascertain the meaning of “applicable” as used in the
statutory text, the court bypassed the statutory
context in search of the broader definition preferred by
the lexicographer to the narrower means chosen by
Congress in pursuit of an exception of the PLCAA’s
general rule protecting lawful commerce in firearms
and ammunition. And the court misapplied the three
canons of construction that it did address.
If allowed to stand uncorrected, even if not
followed by any other state or federal courts, and even
if not eventually successful in trial court, this one
decision will open the door to harassing and abusive
litigation against firearms manufacturers and dealers
in Connecticut. Such litigation will accomplish the
anti-gun agenda of gun control and gun confiscation
organizations which have been unsuccessful in having

9
Congress repeal PLCCA. Left uncorrected, this one
errant decision will impair significantly the finances of
companies in the firearms business and infringe the
exercise of the Second Amendment’s inherent right of
all Americans to keep and bear arms.
ARGUMENT
I.

THE CONNECTICUT SUPREME COURT’S
INTERPRETATION OF THE PREDICATE
EXCEPTION TO THE PROTECTION OF
LAWFUL COMMERCE IN ARMS ACT
VIOLATED THE WHOLE TEXT CANON.

PLCAA, enacted in 2005, anticipated and
addressed problems that have occurred since then in
states like Connecticut which have exhibited various
degrees of hostility to the exercise of Second
Amendment rights. The PLCAA incorporated an
exception protecting a narrow class of statutes from
the general rule protecting lawful commerce in arms
stated in 15 U.S.C. § 7903(5)(A) — but the Connecticut
Supreme Court, in a divided opinion, has used that
exception to swallow up the rule.
A proper understanding of the PLCAA requires a
correct understanding of eight separate findings and
seven statements of purposes of the PLCAA, which are
spelled out in great detail in 15 U.S.C. § 7901(a) and
(b). Of these 15 provisions, the majority mentioned
only three, while the dissent at least listed all of them.
Compare Soto at 302-03 with Soto at 308-311.

10
According to the title-and-headings canon of
interpretation, all 15 of these findings and purposes
“‘can aid in resolving an ambiguity in the legislation’s
text,’” but “‘they cannot undo or limit that which the
text makes plain.’” A. Scalia & B. Garner, Reading
Law at 221 (West: 2012). Yet, with respect to the
three provisions stating that the PLCAA was designed
to protect the Second Amendment right to keep and
bear arms, the majority picked a fight, questioning
whether the Amendment extends “to the types of
quasi-military, semiautomatic assault rifles at issue in
the present case.” Soto at 310. This is a misuse of the
title-and-headings canon, and should be rejected. See
Argument III, infra.
A. The Whole Text Canon Applied.
As Scalia and Garner have observed:
[p]erhaps no interpretive fault is more
common than the failure to follow the wholetext canon, which calls the judicial interpreter
to consider the entire text, in view of its
structure and of the physical and logical
relation of its many parts.” [Reading Law at
167 (emphasis added).]
Beginning with its title, the purpose of the law is
unmistakable: the protection of lawful commerce in
arms. More specifically, the expressed purpose of
PLCAA is to prohibit lawsuits against manufacturers,
distributors, dealers, importers of firearms or
ammunition, and even their trade associations, for
harm solely caused by the criminal or unlawful misuse

11
of firearms or ammunition products by others when
the product functioned as designed and intended. 15
U.S.C. § 7901(b)(1). Completely missing from the
majority analysis is any reference to this statement of
purpose. Yet, the general rule of the combined
§§ 7902(a) and 7903(1) mirrors the stated purpose —
to protect the commerce in firearms and ammunition
“when the product functioned as designed and
intended.” Id.
Instead of acknowledging this protective purpose
of PLCAA, the court majority below seized on Finding
number 4, likening PLCAA to the Gun Control Act of
1968, the National Firearms Act, and the Arms Export
Control Act of 1968, and by analogy, compared these
laws of a “heavily regulated” industry to diminish
PLCAA’s broad protective purpose. Soto at 309. The
majority then compounds its erroneous comparison,
attributing to Congress the unexpressed intent that
nothing in PLCAA “abrogate[d] the well established
duty of firearms sellers to market their wares legally
and responsibly, even though no federal laws
specifically govern the marketing of firearms.” Id.
This is sheer nonsense and tendentiousness, in light of
the fact that the Gun Control Act of 1968 provided that
“[n]o person shall engage in business as a firearms or
ammunition importer, manufacturer, or dealer until he
has filed an application with, and received a license to
do so from the [federal government].” See 18 U.S.C.
§ 923. Instead of honoring the whole text canon, the
majority selected Finding number 4 only to defend a
conclusion that it had already made (Soto at 308-11)
that:

12
the findings make clear that Congress sought
to preclude only novel civil actions that are
“based on theories without foundation in
hundreds of years of the common law and
jurisprudence ... and do not represent a bona
fide expansion of the common law.” [Soto at
309 (emphasis added).]
On the contrary, PLCAA’s first Statement of
Purpose is a broadly fixed rule prohibiting all suits
other than those specifically excepted — not just “novel
civil litigations.” See 15 U.S.C. §§ 7901(b)(1) and
7903(5)(A). But even if the predicate exception only
barred “novel civil litigation,” plaintiffs’ theory of
liability, found to be actionable by the Connecticut
court, certainly qualifies as novel. Although the court
acknowledged that the shooter Lanza “was directly
and primarily responsible,” the “defendants also bear
some of the blame” (Soto at 272 (emphasis added)).
The court twisted advertisements, which accurately
described the attributes of the lawful rifle, to be
unlawfully “promot[ing] ... civilians to use to carry out
offensive, military style combat missions...” (id.),
including by “teenaged boys” (id. at 277, n.17) even
though the weapon at issue was purchased by a
woman, the shooter’s mother, years before. Then, even
in the absence of an allegation that the shooter or his
mother ever saw defendants’ ad (as the complaint did
not specify when the ads appeared, id. at 294-95),
causation was assumed because the shooter “selected”
the rifle “from among an arsenal that included” a
shotgun because of his dreams of being an Army
ranger. Id. at 278. This concocted theory of liability,
without any actual fault or causation, is classic

13
“enterprise liability” — which PLCAA was designed to
bar. Moreover, even if the plaintiffs are ultimately
unsuccessful in winning their case — which the court
termed “a Herculean task” (id. at 290) — the anti-gun
agenda of groups urging on such litigation would have
succeeded by imposing unsustainable discovery and
litigation expenses on the firearms industry. See
Petition for Certiorari at 6, 33.
Furthermore, PLCAA is not limited to a single
purpose. Rather, its objects are multifaceted: first, to
preserve a citizen’s access to a supply of firearms
necessary to secure the Second Amendment’s
individual right to keep and bear arms for self-defense
and other lawful purposes (15 U.S.C. § 7901(a)(1) and
(2) and (b)(2)); second, to guarantee a citizen’s rights,
privileges, and immunities, as applied to the States,
under the Fourteenth Amendment to the United
States Constitution, pursuant to section 5 of that
Amendment (§ 7901(a)(7) and § 7901(b)(3)); third, to
encourage sovereignty and comity among the several
states (§ 7901(b)(6) and (7)); fourth, to prevent the
impositions of unreasonable financial burdens upon
interstate and foreign commerce among the States,
threatening the nation’s free enterprise system
(§ 7901(a)(6) and (b)(4)); fifth, to reject the concept of
enterprise liability by reaffirming the ancient common
law rules of individual fault and proximate cause as
the sine qua non of legal liability (§ 7901(a)(6) and (7));
sixth, to restore the balance of power among the three
branches of government in both the state and federal
systems, limiting the power of the judiciary
(§ 7901(a)(8)); and seventh, to protect the firearms
community’s right to assemble peaceably, speak freely,

14
and to petition for redress of grievances even though it
is heavily regulated by federal, state, and local laws
(§ 7901(a)(4) and (b)(5)).
To achieve these several objects, Congress required
the immediate dismissal of any pending or future
“qualified civil liability action ... in any Federal or
State court.” See 15 U.S.C. § 7902(a) and (b). In turn,
PLCAA defined the term “qualified civil liability
action” as follows:
a civil action or proceeding or an
administrative proceeding brought by any
person against a manufacturer or seller of a
qualified product, or a trade association, for
damages, punitive damages, injunctive or
declaratory relief, abatement, restitution,
fines, or penalties, or other relief, resulting
from the criminal or unlawful misuse of a
qualified product by the person or a third
party.... [15 U.S.C. § 7903(5)(A).]
Then, the PLCAA spells out some exceptions to this
general rule, including the one at issue in this case. It
reads:
an action in which a manufacturer or seller of
a qualified product knowingly violated a State
or Federal statute applicable to the sale or
marketing of the product, and the violation
was a proximate cause of the harm for which
relief is sought.... [15 U.S.C. § 7903(5)(A)(iii)
(emphasis added).]

15
According to the court below, the ordinary meaning of
the word “applicable” is “capable of being applied.”
Soto at 302. Thus, the majority concluded that the
exception applied to a statute that was not firearm
specific, but was broad enough to include the CUTPA
claim.
The majority persisted, even though
acknowledging that there was a secondary, narrower
meaning, “‘fit, suitable, or right to be applied:
appropriate.’” Id. Instead of acceding to the narrower
meaning, the justices noted that “[i]f Congress had
intended to limit the scope of the predicate exception
to violations of statutes that are directly, expressly, or
exclusively applicable to firearms, however, it easily
could have used such language.” Soto at 302. But that
is no answer to the question of what the majority did
do — and only the narrower definition of applicability
makes any sense in light of the broad and various
purposes expressed in the PLCAA text.
B. The Whole Text Canon Neglected.
In their haste to settle on the meaning of an
allegedly “ambiguous” word in an exception to the
general rule embodied in the PLCAA, the court below
went straight to the dictionary to find the meaning of
“applicable.” Had the Court honored the whole text
canon, it would have realized that the meaning of the
word “applicable” as it appears in § 7903(5)(A)(iii) “‘is
to be looked for, not in any single section, but in all the
parts together and in their relation to the end in
view.’” Reading Law at 168 (quoting Justice Benjamin
Cardozo).

16
While the majority purported to examine the
meaning of “applicable” within a “broader statutory
framework” (Soto at 303), they limited their inquiry to
the “predicate” exception in which the word itself
appears. Id. at 303-06. When they reached beyond the
stated exceptions to the Statement of Findings and
Purposes, the justices isolated one finding — that
“firearms ... are heavily regulated” — as if that finding
was the “end in view” or purpose of the overall Act. Id.
at 309-10. To be sure, the majority opinion also
acknowledged the fact that two of the findings
reference the Second Amendment, but they belittle
those findings by gratuitously asserting that it is
questionable whether the Amendment extends
protection “to the types of quasi-military,
semiautomatic assault rifles at issue in the present
case.” Id. at 310. Having allowed the Assault
Weapons Ban to expire on September 13, 2004, the
year before PLCAA was enacted, there is no doubt that
the PLCAA protects commerce in such weapons,
having designated firearms generally to be “qualified
products.” See 15 U.S.C. § 7903(4). But the majority
of the state justices below was not really interested in
the statutorily itemized findings and purposes, as they
might apply to the meaning of “applicable” in relation
to the carved-out exception for violations of certain
state or federal laws. Yet, “[c]ontext is a primary
determinant of meaning [and] [t]he entirety of [119
Stat. 2095] thus provides the context for each of its
parts.” Reading Law at 167.

17
C. The Whole Text Canon’s Treatment in the
Dissent.
In contrast to the majority’s approach, the dissent
below began with a recitation of all of the statute’s
findings and purposes, yet did not search out meaning
from that text in a robust manner, only disagreeing
“with the majority’s suggestion that we should read
the arms act narrowly and its predicate exception
more broadly.” Soto at 335 (Robinson, J., dissenting).
Instead, the dissent applied the general rule that
“‘when a statute sets forth exceptions to a general rule
[that] we ... construe the exceptions narrowly to
preserve the primary operation of the [provision].’” Id.
Additionally, the dissent invoked the principles of
noscitor a sociis and avoiding legislative superfluity to
“avoid ascribing to one word a meaning so broad that
it is inconsistent with its accompanying words, thus
giving unintended breadth” (id. at 336):
The very specific examples of firearms laws
that Congress provides in the predicate
exception strongly suggest that it intended
only those statutes that are specific to the
firearms trade to be considered “applicable to
the sale or marketing of the product....” [Id. at
337.]
II. THE CONNECTICUT SUPREME COURT
MISAPPLIED THE CANONS OF
CONSTRUCTION THAT IT ADDRESSED.
From an examination of the text of the predicate
exception, the Connecticut Supreme Court concluded

18
that there were two “plausible” interpretations of the
word “applicable,” and that it believed the plaintiff’s
broad and general interpretation to be “better” and
“more reasonable.”4 Soto at 302. Finding textual
ambiguity, the court applied three canons of statutory
construction, concluding that each supported the view
that it had already favored as being “better.” Soto at
312-18.
A. Clear Statement Principle.
The court first addressed the Clear Statement
Principle, a rule of construction often applied to ensure
that Congress really intended to preempt a state law.
The court summarized that rule, which it termed a
“requirement,” as follows: “a federal law is not to be
construed to have superseded the historic police
powers of the states5 unless that was the clearly
expressed and manifest purpose of Congress.” Soto at
312.
The court never discussed that the “clearly
expressed and manifest purpose of Congress” in
enacting the PLCAA was to preempt state (and
4

The dissent explained that “the more technical definition of
‘applicable’ in Black’s Law Dictionary as it relates to laws or
regulations” (citations omitted) defined “‘applicable’ in references
to ‘a rule, regulation, law, etc.’ as ... ‘having direct relevance,’”
which was the view the defendants urged. Soto at 330 (Robinson,
J., dissenting).
5

Without discussion, the court assumed that a lawsuit brought
by a private party based on advertisements constituted an
exercise of a “historic police power of a state.”

19
federal) litigation (regardless of whether the plaintiff
was a government or a private litigant) against those
engaged in any aspect of the firearms business, as
expressed in the first congressional purpose to prohibit
certain causes of action against firearm businesses. 15
U.S.C. § 7901(b)(1).
Solely because the PLCAA’s text did not
specifically mention the “advertising” of firearms, the
court declared that the police power of the state had
not been overcome by the PLCAA’s federal preemption
scheme. Soto at 313. Actually, PLCAA never made
any attempt to list the types of commercial activities
engaged in during the manufacture, distribution, retail
sale, and importation of firearms for which lawsuits
could not be brought, but that did not mean that
Congress did not intend to bar litigation based on
engaging in such unitemized activities.6
B. Doctrine of Ejusdem Generis.
PLCAA’s “predicate exemption” provided that a
business would not be protected if it “knowingly
violated a State or Federal statute applicable to the
sale or marketing of the product ... including” two
subsections identifying more than two federal statutes
— all of which were directly applicable to firearms:

6

To bolster its argument, the court postulated “advertising that
encourages consumers to engage in egregious criminal conduct....”
(Soto at 313), an act which likely would be a crime that would not
be preempted by PLCAA.

20
(I) any case in which the manufacturer or
seller knowingly made any false entry in, or
failed to make appropriate entry in, any
record required to be kept under Federal or
State law with respect to the qualified product,
or aided, abetted, or conspired with any
person in making any false or fictitious oral or
written statement with respect to any fact
material to the lawfulness of the sale or
other disposition of a qualified product; or
(II) any case in which the manufacturer or
seller aided, abetted, or conspired with any
other person to sell or otherwise dispose of a
qualified product, knowing, or having
reasonable cause to believe, that the actual
buyer of the qualified product was
prohibited from possessing or receiving a
firearm or ammunition under subsection (g) or
(n) of section 922 of title 18.... [15 U.S.C.
§ 7903(5)(A)(iii) (emphasis added).]
The defendants argued that “the general category
encompasses only things similar in nature to the
specific examples that follow.” Soto at 314. With a
waive of its collective hand, the court dismissed this
highly important point, speculating that these
illustrative provisions were inserted merely to gain
support for the bill — or at least lessen opposition to
the bill, and therefore tell us nothing about what
Congress intended, rendering the canon “not
applicable” (Soto at 317) to the predicate exception.
To reach its conclusion, the court cited no judicial
authorities — not one. Indeed, these amici are not

21
familiar with any prior judicial decision explaining a
“log rolling” exception to the doctrine of ejusdem
generis. Actually, if the truth were known, most
everything in the bill was put there in order to gain
support for the bill, or lessen opposition to the bill.
That is the legislative process.
Additionally, when Congress made its finding that
those businesses dealing in firearms “are heavily
regulated by Federal, State, and local laws,” that
observation was followed by an itemization of such
laws and all were firearms laws: “the Gun Control Act
of 1968, the National Firearms Act, and the Arms
Export Control Act.” 15 U.S.C. § 7901(a)(4). Here too,
none of the laws “applicable to” firearms were laws of
general application.
Lastly, the majority never even tried to respond to
the dissenter’s powerful argument against their view:
“Had Congress intended the predicate exception to
broadly encompass any statute capable of application
to the manufacture or sale of anything, the inclusion of
those firearms-specific examples would be
superfluous.” Soto at 337 (Robinson, J., dissenting).
C. Statutory Exceptions to Be Construed
Narrowly.
The third doctrine was defendants’ contention that
“statutory exceptions ... must be construed narrowly to
preserve the primary purpose of PLCAA.” Soto at 317.
Here, the court was at its most creative in the one
paragraph it devoted to the issue — again without any
reliance on judicial authority. The court imputed to

22
defendants an argument that the primary purpose of
PLCAA was “to shield firearms sellers from liability
for wrongful or illegal conduct.” Id. The court then
contends “[i]f Congress had intended to supersede
state actions of this sort, it was required to make that
purpose clear.” Id.
The entire discussion of statutory construction
here is what are the types of “State or Federal statute
applicable to the sale or marketing of the product” that
actions may be brought if there is a “knowing
violation.” The Connecticut court seems to blithely
assume that any suit against a gun dealer is filed for
a good reason. It is exactly that thinking that led to
the enactment of PLCAA in the first place.
The dissent rejected the majority opinion’s
perverse inversion of PLCAA:
With respect to the canons of statutory
construction, I first observe that the predicate
exception is exactly that — an exception to the
arms act. It is well settled that, “when a
statute sets forth exceptions to a general rule,
we generally construe the exceptions narrowly
in order to preserve the primary operation of
the [provision]....”
I disagree with the
majority’s suggestion that we should read the
arms act narrowly and its predicate exception
more broadly. [Soto at 335 (Robinson, J.,
dissenting).]7
7

The dissent included a curious comment that “the
distastefulness of a federal law does not diminish its preemptive

23
In truth, the majority opinion was even more
fundamentally flawed than the dissent indicated. The
defendants correctly contended that the majority’s
analysis led to an “absurd result.” Soto at 311. As
Judge Berzon clearly explained in one of the cases
rejecting the theory underlying Connecticut court’s
upside-down approach:
the predicate exception cannot possibly
encompass every statute that might be
“capable of being applied” to the sale or
manufacture of firearms; if it did, the
exception would swallow the rule, and no civil
lawsuits would ever be subject to dismissal ...
under [PLCAA]. [Soto at 334 n.11, quoting
Ileto v. Glock, Inc. 565 F.3d 1126, 1155 (9th
Cir. 2009) (Berzon, J., concurring in part and
dissenting in part).]

effect....” Soto at 328 (Robinson, J., dissenting). It was not clear
if the dissenters viewed the PLCAA to be distasteful, which would
make it a gratuitous anti-gun observation, or if the dissenters
believed the majority justices viewed the law as distasteful, which
led them to eviscerate the statute through a strained
interpretation.

24
III. PLCAA WAS ENACTED TO PROTECT THE
SECOND AMENDMENT RIGHTS OF
AMERICAN CITIZENS, WHICH RIGHTS
WERE IGNORED BY THE CONNECTICUT
SUPREME COURT.
The first two findings set out in PLCAA revealed
a primary desire by Congress to protect the People’s
exercise of their constitutional rights:
(1) The Second Amendment to the United
States Constitution provides that the right
of the people to keep and bear arms shall not
be infringed.
(2) The Second Amendment to the United
States Constitution protects the rights of
individuals, including those who are not
members of a militia or engaged in
military service or training, to keep and
bear arms. [15 U.S.C. § 7901 (a)(1) and (a)(2).
(emphasis added).]
From those two findings, there is ample reason to
conclude that Congress enacted the PLCAA to protect
the pre-existing and inalienable “right of the people to
keep and bear arms” provided for in the Second
Amendment — but that appears not to be the view of
the court below. Although the Second Amendment
played almost no part in the court’s consideration, the
four justices gratuitously declared that “it is not at all
clear, however, that the second amendment’s
protections even extend to” AR-15 type rifles,
speculating that they may be “dangerous and unusual”
and “military style” weapons. Soto at 310.

25
The Connecticut court assumed that only members
of the military could possess AR-15 type rifles — the
most popular rifle in America. See Petition for
Certiorari at 9. The court wholly ignored the PLCAA’s
express protection of “the rights of ... those who are
not members of a militia or engaged in military
service or training.”8
The Connecticut court falsely assumed the
legitimacy of plaintiffs’ contention that there were only
a few legitimate purposes to own firearms — “selfdefense, hunting, target practice, collection, or other
legitimate civilian firearm uses.”
Soto at 284.
Completely absent from the court’s Second
Amendment analysis is any recognition of the ultimate
purpose stated in its preamble, that the Amendment
is “necessary to the security of a free State....” The
framers well knew that threats to a “free State” could
come externally or internally, and to guard against
both, the People needed the firepower to resist
oppression from any source.9 In fact, a better case can
be made that the Second Amendment protects

8

Indeed, if the approach of the Connecticut judges in the majority
had been followed in 1776, the colonists would have been
prevented from owning the most modern and effective firearms
available, which would have changed history by preventing those
experienced marksmen from joining forces to throw off British
rule. See generally Brief Amicus Curiae of Gun Owners of
America, Inc., et al,, Hollis v. Lynch (Fifth Circuit, Nov. 2, 2015).
9

The framers knew that throughout history, the greatest threats
to the individual have come not from foreign adversaries, but from
their own governments See generally, R.J. Rummel, Death By
Government (Routledge: 1997).

26
military-style arms than it supports firearms for
hunting. See U.S. v. Miller, 307 U.S. 174, 178 (1939).
The Connecticut court did not stop to consider that
imposing crushing financial defense costs on the
firearms industry would not just impact adversely the
sales of AR-15 type rifles — but would also render
them unable to manufacture any firearms at all.10 A
Second Amendment right to arms without protection
of the sources of those arms is a meaningless right.
By its expansive interpretation of the predicate
exception and its cramped interpretation of the ban on
lawsuits, the Connecticut court construed the PLCAA
in a way that not only ignored and undermined
Congress’ strongly stated goal of protecting the
People’s Second Amendment rights, but has re-exposed
the firearms industry to the sort of financial ruinous
litigation that could negate the exercise of Second
Amendment rights.
CONCLUSION
For the reasons stated above, the Petition for a
Writ of Certiorari should be granted.

10

The financial health of firearms manufacturers continues to be
tenuous. See J. Spector, “Remington Arms, the upstate New York
gunmaker, to partially shut down plant this summer,“ Democrat
& Chronicle (May 30, 2019).

27
Respectfully submitted,
JOSEPH P. SECOLA
SECOLA LAW OFFICES,
LLC
65 Main Street
Danbury, CT 06810
Co-Counsel for Amici
JOHN I. HARRIS III
SCHULMAN, LEROY &
BENNETT, PC
501 Union St., 7th Fl.
Nashville, TN 37219
Attorney for Tennessee
Firearms Association
STEVEN C. BAILEY
CALIFORNIA
CONSTITUTIONAL RIGHTS
FOUNDATION
932 D Street, Suite 2
Ramona, CA 92065
Attorney for CCRF
JOSEPH W. MILLER
JOSEPH MILLER LAW
OFFICES, LLC
P.O. Box 83440
Fairbanks, AK 99708
Attorney for RLAC

HERBERT W. TITUS*
WILLIAM J. OLSON
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record
September 4, 2019

